                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A07100055                                                                       Page 1 of 1



                  We conducted an inquiry into whether an NSF reviewer' used a confidential proposal2he had
         access to through FastLane as the source of copied text that appeared in two submitted versions of
         his own NSF proposal.3 In response to our questions, the reviewer admitted to having viewed the
         proposal through FastLane and to corresponding with the author4of that proposal about the process
         that was the subject matter of most of the copied text and embedded references. Although the
         reviewer's use of the copied material meets the definition of plagiarism and he admitted to using the
         confidential proposal as a source, the reviewer provided evidence that the copied material had been
         published shortly before the reviewer submitted his first proposal and that he had relied on that
         publication as well. Given the unique circumstance of this case and the limited number of lines
         involved, we wrote to the reviewer strongly recommendingthat he review the standards of attribution
         in his discipline and reminded him of his confidentiality obligations when reviewing NSF proposals
         in the hture.

                    Accordingly, this case is closed.




-

NSF OIG Form 2 (1 1/02)
